<html>
<title> - [H.A.S.C. No. 114-124] NAVY FORCE STRUCTURE AND READINESS: PERSPECTIVES FROM THE FLEET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-124]

                        NAVY FORCE STRUCTURE AND

                        READINESS: PERSPECTIVES

                             FROM THE FLEET

                               __________

                             JOINT HEARING

                               before the

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                          meeting jointly with

                       SUBCOMMITTEE ON READINESS

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              MAY 26, 2016




  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   

 
                                   ______
 
                          U.S. GOVERNMENT PUBLISHING OFFICE 
 
 20-792                         WASHINGTON : 2017 
 -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Publishing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk

                                 ------                                

                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York, Vice    JOAQUIN CASTRO, Texas
    Chair                            TAMMY DUCKWORTH, Illinois
FRANK A. LoBIONDO, New Jersey        SCOTT H. PETERS, California
MIKE ROGERS, Alabama                 TULSI GABBARD, Hawaii
CHRISTOPHER P. GIBSON, New York      BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Margaret Dean, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     4
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
Peters, Hon. Scott H., a Representative from California, 
  Subcommittee on Readiness......................................     5
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     3

                               WITNESSES

Davidson, ADM Phillip S., USN, Commander, U.S. Fleet Forces 
  Command; CAPT Randy Stearns, USN, Commodore, Strike Fighter 
  Wing, Atlantic; CAPT Scott Robertson, USN, Commander, USS 
  Normandy (CG-60); CAPT Greg McRae, USN, Deputy Commander, 
  Submarine Squadron 6; and CAPT Paul Odenthal, USN, Commodore, 
  Naval Construction Group 2.....................................     7

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    46
    Davidson, ADM Phillip S., joint with CAPT Randy Stearns, CAPT 
      Scott Robertson, CAPT Greg McRae, and CAPT Paul Odenthal...    48
    Forbes, Hon. J. Randy........................................    43
    Wittman, Hon. Robert J.......................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Peters...................................................    63

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    NAVY FORCE STRUCTURE AND READINESS: PERSPECTIVES FROM THE FLEET

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Seapower and 
            Projection Forces, Meeting Jointly with the 
            Subcommittee on Readiness, Washington, DC, 
            Thursday, May 26, 2016.

    The subcommittees met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the Seapower and Projection Forces Subcommittee) 
presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Good morning and I want to welcome members of 
the Seapower and Projection Forces and Readiness Subcommittees 
to our hearing today.
    Before we begin, we just have two logistical matters that I 
would like to take care of. The first one is I would like to 
ask unanimous consent that nonsubcommittee members be allowed 
to participate in today's hearing after all subcommittee 
members have had an opportunity to ask questions.
    Is there any objection?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate time for 5 minutes.
    In addition to that, I would like to ask unanimous consent 
that Admiral Davidson be allowed to make an opening statement 
on behalf of the Navy and the respective Navy witnesses.
    Is there objection?
    Without objection, it so ordered.
    As I mentioned, we welcome everyone here today to this 
joint subcommittee on Seapower and Projection Forces and 
Readiness Subcommittees at our hearing today.
    I want to offer a special welcome to our full committee 
chairman, Mr. Thornberry. As everyone knows, Chairman 
Thornberry has been the leader of our ongoing efforts to 
mitigate our military readiness challenges and I want to thank 
him for his leadership and for being here today to hear about 
the United States Navy.
    This hearing follows a congressional delegation and 
listening session that members of our committee conducted on 
Monday aboard Naval Station Norfolk, the aircraft carrier 
Dwight D. Eisenhower and the destroyer, the USS McFaul.
    While in Norfolk we had a chance to meet with a number of 
Navy sailors, including the witnesses that are testifying 
before us today.
    Today we will have Captain Scott F. Robertson, the 
commanding officer of the USS Normandy. Captain, thank you for 
being here.
    We have Captain Randy Stearns, the commodore and Strike 
Fighter for Wing Atlantic. Captain, thank you for joining us.
    We have Captain Gregory McRae, the deputy commander of 
Submarine Squadron 6. And Captain, thank you for joining us.
    And Captain Paul Odenthal, commander of the Naval 
Construction Group 2. Captain, we thank you for joining us 
today.
    I am also particularly delighted to have Admiral Davidson, 
the commander of the U.S. Fleet Forces Command, who will make 
an opening statement this morning.
    We have a special guest with us here in the audience. That 
is Captain Robertson's wife, Kelly. Last year Captain Robertson 
and his crew went away for a whopping 313 days, including their 
wedding anniversary and likely many other important family 
events.
    Today his duty once again called him away from home on his 
anniversary, and at least on this anniversary I want to get him 
out of the doghouse a little bit, and I want to thank Kelly for 
her service and her support for her husband and to recognize 
all the sacrifices she and our other Navy spouses and families 
make for our country.
    I am grateful to everyone for being here, but I want to 
thank the captains in particular for first giving us their 
perspectives in Norfolk and then coming up to Washington to 
share them with additional members.
    I think it is very important that we hear not just from 
senior Navy leaders, but from the operators and warfighters 
like yourselves, who are dealing with readiness challenges 
firsthand.
    When we met with our witnesses down in Norfolk, one of them 
characterized his current role and responsibility as the 
commander of a Navy unit as, quote: ``managing scarcity.''
    Our sailors do not sign up to manage scarcity. They sign up 
to defend their families, their homes, their country. They sign 
up to defend our families, our home, and our country.
    Every day our sailors have a duty to defend America. It is 
time that we as Americans realize we have a duty to defend 
them. Hopefully, we take a major step in that this morning.
    I think that the term is a very good description of the 
challenges that our men and women in uniform and the civilians 
that support them are dealing with across the fleet and in the 
Navy sister services.
    While I firmly believe that the United States Navy is still 
the world's best, I am concerned about shortfalls in force 
structure and readiness and the trend lines that we can see.
    Over the past year we have heard from the Chief of Naval 
Operations that we are returning to an era of great power 
competition in which our maritime superiority will be contested 
by other countries.
    We have heard about ship deployments growing from 5\1/2\ to 
as many as 10 months in length.
    We have heard about carrier gaps in Asia and the Middle 
East. We have heard that shortfalls in the number of amphibious 
ships are driving the Marines to consider deploying aboard 
foreign ships.
    And we have heard that only one in four of our strike 
fighters is fully mission capable and ready for combat.
    And finally, we have received data showing that next year 
around the world we will only be able to fulfill 56 percent of 
our commanders' requests for carriers, 54 percent of the 
requests for amphibious groups, 42 percent of the requests for 
submarines, and 39 percent of the requests for cruisers and 
destroyers.
    The conclusion that I think we should all be drawing from 
what we hear is that we are not currently providing our Navy 
with the resources it needs to do what we ask, at least not 
without burning out our ships and our planes and our sailors 
and undermining our long-term readiness.
    As members of these subcommittees know, the Navy will 
always answer the Nation's call. It always has.
    If we require it, the Navy can and will run its ships and 
sailors ragged and send them into battle without all the 
weapons and training and maintenance they should have.
    But we do not want to do that. We want to take care of our 
men and women in uniform and maintain peace through strength 
with a Navy that is robust and ready to deter potential 
aggressors. We never ever want a fair fight.
    In our witnesses' prepared statement, it says that we are 
recovering from our lowest readiness point in many years. As a 
Congress, we have the responsibility to provide and maintain a 
Navy, but I believe that the resources we have been allocating 
to that critical function of government have been woefully 
inadequate.
    Today I hope to hear from both senior Navy leaders and our 
operators and warfighters what that means for our Navy and for 
our national security so that our perspectives and insights can 
guide our decisions in days and years ahead.
    With that, I now turn things over to the gentleman from 
Virginia, the chairman of the Readiness Subcommittee, my good 
friend, Chairman Wittman, for any opening remarks that he might 
have.
    Rob.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 43.]

  STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE FROM 
         VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. Well thank you, Mr. Chairman. I appreciate 
your leadership. Chairman Thornberry, thank you. Ranking Member 
Courtney and Ranking Member Bordallo, we deeply appreciate all 
the efforts here.
    Gentlemen, thank you. Thanks so much for your leadership 
and your distinguished service to our Nation and all of the 
things that you do to make sure that our Navy and our Marine 
Corps have the things that they need when asked to go into 
harm's way.
    Every service branch we know today is suffering from 
readiness deficits and we know that those shortfalls in 
training and equipment have serious consequences for our 
warfighters.
    This hearing will give us the opportunity to hear from the 
men and women on the ground, in the air, and on the water who 
deal with the devastating effects of our readiness shortfalls 
on a daily basis.
    If Congress is to address the obstacles that successive 
cuts in defense spending have posed, we need a clear, 
unadulterated view of the challenges our forces are facing.
    The testimony that you will provide today will give us an 
invaluable view in that regard.
    We are looking into the challenges ahead and these are the 
ones we see as our fleets dwindle and as our sailors and their 
families suffer under the strain of less training and longer 
deployments.
    In March, Vice Chief of Naval Operations Admiral Michelle 
Howard testified before the Readiness Subcommittee that the 
Navy is still paying down the readiness debt we accrued over 
the last decade. And to the Senate Armed Services Committee, 
she said that sequestration is the greatest threat to our 
future readiness. It has a ripple effect for us throughout the 
years.
    Today our subcommittees would like to hear from you, our 
Nation's operational leaders, about maintenance, status of our 
equipment, the operational availability of our ships, aircraft 
and weapons systems and, perhaps the most importantly, the 
obstacles you face as you train our sailors to meet the 
challenges ahead.
    Gentlemen I thank you for your service. As a reminder of 
what we all are faced with, tomorrow at the United States Naval 
Academy, we will commission over 1,000 new naval officers, both 
as ensigns in the Navy and as second lieutenants in the Marine 
Corps. All of us have an obligation, not only for those 
officers but those that enlist in the Navy and Marine Corps to 
make sure that we never forget what it takes to provide for 
them the proper training, the proper equipment that they need 
to, as Chairman Forbes said, to have overwhelming superiority 
so they can fight to victory and come home safe.
    That is our unending obligation both here as elected 
leaders and for you as our military leaders. We all take that 
challenge seriously and I know, I know and am confident that we 
will face that challenge. Gentlemen, thank you so much for 
joining us, and Mr. Chairman, with that I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 45.]
    Mr. Forbes. Thank you, Congressman Whitman. Now it is my 
privilege to recognize my partner on the Seapower and 
Projection Forces Subcommittee the ranking member, Mr. Joe 
Courtney.

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman and Mr. Wittman, for 
holding today's hearing on Navy force structure and readiness 
and for both of your leadership in terms of what has been a 
very strong bipartisan effort both in Seapower and Readiness 
that became part of the House defense authorization bill.
    I have a written statement which I am going to enter for 
the record because we want to hear from the witnesses this 
morning. In quick summary--this year we have heard a refrain 
from combatant commanders, whether in the Pacific, whether it 
is Admiral Harris, General Breedlove, in the North Atlantic--
again, really stressing the need for more Navy assets to be 
deployed. Admiral Harris with no prompting said he needs more 
ships and submarines, period. General Breedlove said it best, 
``We are playing zone defense in terms of what is happening 
with a resurgent Russian navy.''
    This year we came out with a very strong mark in terms of 
shipbuilding. Ten ships as the chairman noted, the largest 
boost since the Reagan era in terms of investment in 
shipbuilding, but as all the witnesses know, that is the long 
game. You don't build a sub overnight or a carrier overnight or 
a destroyer. And in the meantime we have got to focus on what 
is really the focus of today's hearing, which is that we have 
got to have the operational availability and that means looking 
at something that sometimes doesn't get quite the banner 
headlines in the way that maybe shipbuilding does. And that is 
obviously, making sure that the readiness investments and 
systems are in place so that when Admiral Harris or General 
Breedlove is putting out a demand signal that the country can 
respond to it.
    Again, there is no better testimony than the folks that are 
here at the table this morning. Admiral Davidson it is good to 
see you again after our visit last year, earlier. Captain 
Stearns, thank you again for the CODEL [congressional 
delegation] that we organized. And again, Congress has some 
skin in this game as well. CRs [continuing resolutions] do not 
make this problem any easier and I hope we are going to hear 
from the witnesses about ways that we can help from the 
legislative branch in terms of making sure there is that 
horizon, so that, again, these critical needs are gonna be 
satisfied.
    Again, I want to thank both chairmen for organizing this 
important hearing today. Ask that my written statement be 
entered for the record and I yield back.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 46.]
    Mr. Forbes. Without objection, all the written statements 
will be entered as part of the record, and with that we are 
privileged to recognize now the gentleman from California, Mr. 
Peters, who is standing in as the ranking member for the 
Readiness Subcommittee today. Scott, thank you.

   STATEMENT OF HON. SCOTT H. PETERS, A REPRESENTATIVE FROM 
             CALIFORNIA, SUBCOMMITTEE ON READINESS

    Mr. Peters. Thank you, Mr. Chairman and thank you, Chairman 
Wittman as well, and Mr. Courtney. I thank you all for making 
yourselves available again today.
    In July, 2010 these two same subcommittees convened to 
discuss Navy readiness and 2 years have passed since the USS 
Chosin, which is now homeported in San Diego undergoing 
modernization, and the Stout had been deemed unfit for combat 
operation because of the readiness condition.
    In March 2009, the Readiness Subcommittee examined issues 
the Navy faced in sustaining its surface warships with their 
expected life and beyond. The Navy reported at that hearing 
that it had been taking material steps to address gaps in ship 
maintenance funding and to assess ship material conditions.
    So today, over 6 years later, we are continuing to discuss 
not only the readiness concerns of the Navy's non-nuclear 
service ships, but also shortfalls in naval aviation, 
expeditionary forces, and other aspects of readiness. As 
members of the subcommittees heard on Monday in Norfolk, the 
Navy now faces readiness concerns with its submarine force as 
well. A lack of readiness resonates with our ability to keep 
Americans safe and confront new and dynamic threats across the 
globe. And as our Navy executes its pivot to the Pacific, while 
still carrying out operations against the Islamic State, there 
has never been a more crucial time to have a well-equipped, 
well-trained force.
    These readiness issues of course as Mr. Courtney said did 
not arise overnight. What the Navy is experiencing now, and 
what the subcommittees are attempting to fix in the 2017 
defense bill, are the consequences of years of high operational 
tempo experienced by a smaller fleet--again, happy anniversary. 
I think it is an appropriate time to recognize high operational 
tempo--and fewer aircraft with experienced sailors and civilian 
employees to sustain them.
    The Navy is grappling with these past decisions that reduce 
waterfront maintenance organizations and shore infrastructure, 
process changes to force-wide ship maintenance practices and 
training processes, and the failed Optimum Manning Initiative 
in efforts to derive efficiencies instead of pursuing and 
insisting upon effectiveness.
    So the Navy began responding to declining material 
readiness conditions by increasing manning, improving training, 
providing enduring technical oversight of maintenance, and 
reestablishing clear lines of authority and accountability, but 
the efforts were rendered less effective as Mr. Courtney 
suggested by the sequestration in 2013.
    So when coupled with reductions in skilled personnel at 
aviation depots and fleet shipyards, severe challenges in 
obtaining spare parts for legacy systems, late receipt of funds 
due to the failure of Congress to reach a budget agreement, and 
high operational tempo required by the complex security 
environment, to put it lightly, it is not surprising we are 
dealing with what some call a readiness crisis.
    In an era of new and dynamic threats it is our 
responsibility to navigate these challenges and provide for a 
21st century force that has the tools and capabilities to 
respond to security threats anywhere, anytime, and I welcome 
the opportunity today to hear from our witnesses about some of 
the challenges you are facing. And I encourage my colleagues to 
seriously consider the long-term financial commitments that 
accompany the readiness solutions that we are proposing in the 
fiscal year 2017 authorization bill, which will soon go to 
conference with the Senate.
    Thank you again for being here gentlemen, and thank you Mr. 
Chairman.
    Mr. Forbes. Thank you Congressman Peters and Admiral 
Davidson, you have got a lot on your shoulders. The whole Fleet 
Forces Command, a lot of men and women that are depending upon 
you, including the entire country. We appreciate so much all 
that you do and we appreciate being here today and we would 
love to turn the floor over to you now for any comments that 
you can offer to the committee.

  STATEMENT OF ADM PHILLIP S. DAVIDSON, USN, COMMANDER, U.S. 
   FLEET FORCES COMMAND; CAPT RANDY STEARNS, USN, COMMODORE, 
   STRIKE FIGHTER WING, ATLANTIC; CAPT SCOTT ROBERTSON, USN, 
 COMMANDER, USS NORMANDY (CG-60); CAPT GREG McRAE, USN, DEPUTY 
 COMMANDER, SUBMARINE SQUADRON 6; AND CAPT PAUL ODENTHAL, USN, 
             COMMODORE, NAVAL CONSTRUCTION GROUP 2

    Admiral Davidson. Thank you Chairman Forbes. Chairman 
Thornberry, Chairman Wittman, Ranking Member Courtney, Ranking 
Member Peters----
    Mr. Forbes. Admiral, these mikes are a little funny. You 
might want to pull it up close so that everybody can hear.
    Admiral Davidson [continuing]. And distinguished members of 
the Seapower and Projection Forces and Readiness Subcommittees, 
good morning, and thank you for your active interest in fleet 
readiness. I appreciate your comments very, very much. It is my 
distinct pleasure to introduce these witnesses today, these 
exceptional captains you see before you here to testify about 
our Navy.
    These are just a very few of the extraordinary men and 
women we call upon to lead our Navy at the tactical level, and 
I think you will be impressed. Most importantly, they are in 
the front lines of fleet readiness. As a fleet commander I am 
charged by the Chief of Naval Operations to make the fleet 
ready. That is to say, prepared. To do the mission the Congress 
has given us in law, ``To be prepared for prompt and sustained 
combat incident to operations at sea.''
    In my book there can only be one standard for that. It has 
to be ready, prepared to fight and win. We know the American 
people expect nothing less, and frankly, we expect nothing less 
of ourselves. I won't belabor adversary and threat details as 
testified to you by the Chairman of the Joint Chiefs, the CNO 
[Chief of Naval Operations], and numerous other experts. They 
have made clear the evolving international security 
environment, the nations and actors who would challenge the 
world order--Russia, China, North Korea, Iran, and terror 
groups like ISIS [Islamic State of Iraq and Syria] and Al 
Qaeda. These countries and entities, in different forms, are 
developing and procuring advanced and/or asymmetric systems to 
hold allies and partners at risk, to deny us our sea control in 
the Navy, and to threaten our homeland and our interests.
    In that light, the business of making the fleet ready to 
fight and win is much more difficult than the bumper sticker 
allows. Key to it is the prompt and sustained standard we 
receive from the law. To truly understand whether the fleet is 
ready, it must be understood that the Navy has to be able to do 
three things. First, we have to be able to rotate the fleet out 
on routine deployments around the globe. Second, we have to be 
able to surge the fleet in crisis. That means conflict, war. 
That means more ships, more squadrons, more submarines, and 
more groups forward in times of significant contingency or war, 
and then we have to be able to fix it and reset it after that. 
That means re-equip it and get it ready for the next possible 
contingency and at the same time continue to rotate it out on 
routine deployments.
    And third, we have to be able to maintain and modernize the 
fleet to ensure it is functional, viable, indeed credible, 
meaning ready to fight and win, until its expected end of 
service life. Sometimes that is decades in the future.
    These three components of our readiness are all 
intertwined, and yet all in tension with one another. If we 
keep too many of our capabilities forward on routine 
deployments, we may not have the numbers we need to surge in 
crisis or the time to maintain and modernize these capabilities 
necessary for future success and future generations of sailors.
    Conversely, if too many of our ships and aircraft are in 
maintenance and modernization then the combatant commanders do 
not have the credible combat power needed to deter and dissuade 
potential adversaries and competitors to assure our allies and 
partners or to protect our maritime security and the homeland.
    Too much of one thing typically results in too little of 
another. Nevertheless, we must do those three things to meet 
the prompt and sustained standard established by title 10. That 
said, if there are not enough resources to do all three at 
once, we will typically favor our readiness for deployment over 
the two priorities. I owe that to our sailors today, and I am 
doing precisely that this year, 2016.
    Let me give you an example.
    Earlier this week many of you visited the aircraft carrier 
USS Dwight D. Eisenhower. It is 39 years old. In just a few 
days it will be on its way for its fifth routine deployment in 
the last 7\1/2\ years. In just a few weeks, they will be flying 
strikes in combat against ISIS.
    It is the fleet's job to ensure those sailors in Ike and 
her escorts go on deployment with everything they might 
possibly need: food, fuel, repair parts, ordnance, the 
aircraft, the medical support, and, most importantly, the 
training to succeed in their mission and return home safely, 
and that is the mandatory metric, to succeed on the mission.
    Our first priority is to make sure our deployed and 
deploying forces like Ike are fully ready, that they have 
everything they need to execute combat operations and succeed. 
We do a good job at this, but it is not without cost.
    For example, if I have to ensure that 10 like strike 
fighters are in a single squadron on that aircraft carrier and 
they need the same capability, I will tax units that are back 
here at home--those designed to be later in for surge or those 
in maintenance and modernization of aircraft to make sure that 
we have the requisite aircraft forward. If I need 10 forward, I 
do routinely operate 4 aircraft in squadrons in the rear.
    If a ship forward with Ike strike group, for example,--as 
would any of the forward-deployed ships either homeported, 
overseas or deployed from CONUS [continental United States], if 
they need a part that is not immediately available in their 
stores or not immediately available in their supply system, I 
will tax a ship back in CONUS for that part, either out of 
their stores or, if I have to, I will take it directly out of a 
combat system to deliver to that ship forward.
    Ike strike group is ready to go, and I am committed to 
ensure that they are ready while they are forward. And all of 
it--the equipment, the ordnance, the sailors and their training 
to make them ready for deployment--that is investing in the 
``prompt'' part of the mission that you have given us in law.
    The ``sustained'' part--sustainment means building deep 
preparedness. Our ships, squadrons, and other tactical units 
must be ready to be surged in time of conflict as I said or 
maintaining and modernizing for the threats of the future and 
to deliver on the exceptional return of investment in your 
Navy.
    Ideally, the fleet maintains reliability in its platforms 
and proficiency in its sailors by sustaining readiness in its 
forces fresh off deployment. Additionally, we would endeavor to 
build readiness for full-spectrum conflict, great power 
competitors, as the CNO cited earlier this year, by doing more 
intense training for longer throughout the life of any ship or 
squadron.
    After all, these are the forces we would use to surge in 
conflict and war. Maintenance and modernization is just as 
important. Ike provides relevant combat power today 39 years 
after her commissioning because we invested in maintenance and 
upgrades throughout the years including refueling the reactors, 
modernizing the combat systems aboard, and putting new aircraft 
in its air wing.
    My favorite metric: during Ike's nuclear refueling overhaul 
more than a dozen years ago, we removed more than 5,000 tons of 
wire--5,000 tons of wire--and replaced it with fiber relevant 
to the capabilities needed in our combat systems for today and 
tomorrow. That investment in time and money is important.
    For me, in 2016, the fleet is challenged to provide that 
kind of sustained mission. We are $848 million short between 
Admiral Swift and the Pacific Fleet and myself of the 
operations and maintenance requirements. That is just 2 percent 
of the readiness requirement across the whole of Navy readiness 
and the fleet will have to make--take action to meet our 
financial responsibilities.
    The shortfall developed based on a handful of emerging 
challenges this calendar year--this fiscal year. Excuse me. 
First, we extended Truman strike group on deployment to support 
strike operations against ISIS. Second, we have observed 
increased costs with several aircraft: older F/A-18 A through D 
Hornets, both in the Navy and Marine Corps, and Marine Corps 
CH-53s and MV-22 Ospreys.
    The cost to maintain these aircraft this year is higher 
than modeled and anticipated. These aircraft are simply older 
than we anticipated when we bought them. We have been using 
them longer. Also, we are working hard to improve the supply 
and availability of repair parts with Navy F/A-18E/F Super 
Hornets to improve their flight line readiness this year.
    Third, ship maintenance growth and execution has exceeded 
the planned and budgeted costs over a year ago. As a result, 
the fleet will have to take some risk. That is to say, incur 
consequences, if they are not mitigated later, for the longer 
term. Across both the Atlantic and Pacific Fleets we will delay 
four surface ship availabilities and one submarine major 
maintenance availability from the fourth quarter of this fiscal 
year into next year.
    We will also reduce three smaller, less intensive 
maintenance periods for two amphibious ready groups and one 
carrier strike group. That is an additional dozen ships. We 
will reduce the flying hours associated with one of our carrier 
air wings that is not expected to deploy in the next 2 years as 
well.
    Delaying these maintenance periods and pressing them into 
the next fiscal year--fiscal year 2017--the budget currently 
under consideration is not optimal, but it affects the smaller 
number of ships. I will not embark on a path that partially 
accomplishes all availabilities across the entire fleet. That 
is a dangerous practice that rapidly builds maintenance and 
capability backlogs that are difficult to recover.
    Indeed, we are digging out from that sort of policy more 
than a decade ago.
    As you can see, readiness in the Navy is a very complex 
discussion. Some of the risks, the consequences, if not 
mitigated later, are borne out with reduced training and 
readiness levels for our surge forces. Some of our risk is 
carried in longer-term sustainment with maintenance delayed for 
our ships and our submarines.
    Accepting these risks means accepting less readiness across 
the whole of the Navy, less capacity to surge in crisis and 
wartime, and perhaps living with the reduced readiness on our 
ships and submarines that would keep them from reaching the end 
of their service lives. In either case, recovering from these 
situations will cost us more in time and money in the future.
    These are the fleet readiness challenges and our plans to 
execute today in fiscal year 2016. To provide the additional 
context from fleet operators, we have assembled before you a 
panel of our--four of our commanders: Captain Stearns, 
commanding officer of Strike Fighter Wing Atlantic. He leads 
all F/A-18 Hornet and Super Hornet training and readiness on 
the East Coast.
    Captain McRae, he is the deputy commodore of Submarine 
Squadron 6. He oversees the training and preparation of seven 
attack submarines and their crews.
    Captain Odenthal, commodore of Naval Construction Group 2. 
He heads up our Atlantic Seabees and underwater construction 
teams.
    And Captain Robertson is the commanding officer of USS 
Normandy, fresh off an around-the-world deployment last year--
the Navy's first with our Navy's integrated fire control-
counter air capability--an extraordinary capability; and his 
ship is in maintenance today.
    Like all of us, they are committed to ensuring the best 
possible readiness in the fleet for today and for our future. 
Thank you. Thank you, Chair.
    [The joint prepared statement of Admiral Davidson, Captain 
Stearns, Captain Robertson, Captain McRae, and Captain Odenthal 
can be found in the Appendix on page 48.]
    Mr. Forbes. Admiral Davidson, we thank you again for your 
service. Thank you for your opening remarks and now the 
subcommittee can address our questions to each of our four 
witnesses that are here. And Captain Stearns, I would like to 
start with you.
    We all know that sometimes we talk in a lot of military-
ese. We use terms and I remember one time coming home from 
dinner with the CNO my wife looked at me and she said, ``Do you 
guys ever talk in English?''
    Well, we want to try and talk a little bit in English today 
and one of the things that you are the commander of a strike 
fighter wing. A lot of power under your control and what you 
are doing but I want to--oftentimes we realize that when you go 
places you are trying to train and prepare in good times so 
that you are able to fight in bad times if they occur.
    I am very concerned about the statistic that I am hearing 
that only one out of four of our aircraft are capable--fully 
mission capable and ready for combat. I know in the good times 
you can say we have got enough out there. You heard Admiral 
Davidson talk about surge.
    A lot of people listening to this at home don't know what 
surge means but if you have to go into that fight, what does it 
mean to you when you only have one out of four of your backups 
ready for combat?
    Captain Stearns. One of--that number fully mission capable 
and just to define the term here as we use it in the Hornet 
community is--means that jet has everything it needs to go to 
war. So that one-in-four number that you put out now, that is 
our--that is our deployed forces like Admiral Davidson said as 
well. So that is the--that one in four is currently deployed 
right now. That other three in four are the aircraft that are 
back in the maintenance phase or going through another FRP 
[Fleet Response Plan].
    So what that means is if you wanted to surge more than what 
we have, and we talked about our four air wings that are out 
right now including one on the West Coast and we have one in 
work-ups now and then one ready to go, which was the Ike down 
there and the Truman--those are fully manned. But if you wanted 
to pull back it would take me over 6 to 12 months to get 
another air wing back here of that three in four aircraft 
backup ready to go.
    Mr. Forbes. So explain the impact of that and the risk that 
it has to you. If you are in a conflict--obviously if you are 
not in a conflict it is not going to matter that much--but if 
you are in a conflict based on our op plans, how important are 
those planes to you and how risky is it that you would have to 
wait 6 to 12 months to get them?
    Captain Stearns. It is--at the bottom of the--there is no 
chance of getting those ready. The metric I had when I was a 
department head, just to put it into context, was about a 90-
day surge. We could have the parts and aircraft to get an air 
wing out and a squadron up if we actually resourced them out in 
90 to 120 days. It is going to take three times as long to get 
that out now.
    So it means that there is nothing to pull from in the back. 
We have already pulled everything forward. There is nothing 
left in the----
    Mr. Forbes. So if you are in a fight, you do not have 
anything to pull from in the back right now and it would be 6 
to 12 months before you would have it ready to----
    Captain Stearns. As of today, we don't have that surge 
capacity right now.
    Mr. Forbes. The other thing that I would like to talk about 
and Admiral Davidson mentioned taxing planes back here, taxing 
ships and another word for that is I think you sometimes use 
the term cannibalization of our aircraft, which is basically 
taking parts off of one aircraft to be able to use to fix the 
other ones to fight.
    Well we already have a situation where three out of four of 
our aircraft are not fully mission capable to back you up if 
you need it. Tell me about this term we use is ``hangar 
queens'' or cannibalization. Are you using a plane in the 
hangar now that you are taking parts off of to put on other 
parts to fly?
    Captain Stearns. That is a regular occurrence and 
cannibalization, or taking parts off that, is our last resort. 
We work through the supply system and, as you know, our A 
through Ds are stuck in the depot because of unforeseen 
utilization. Our Super Hornets--we have had parts problems over 
the past 3 years, starting in 2012 with sequestration and there 
were other--some other factors that played into that as well.
    But we have never caught up and absolutely--so what that 
means to you is that that is the last resort. We are pulling 
that off an aircraft and I was the one talking about managing 
scarcity and that is exactly what I am talking about, managing 
scarcity.
    I have to decide what squadron--I have three squadrons 
right now that I had to call and tell, ``Hey, be ready; you are 
the donors for the Truman extension.'' That was not paid for. 
That was unforeseen. That is a tax back here on the system as 
well.
    Mr. Forbes. So, Captain, let me be clear, three out of four 
of your strike fighters not capable of--fully mission capable 
right now, takes 6 to 12 months to get them there. But in 
addition to that, what you have to do is, as the last resort, 
go in planes that you have, take parts off of those planes 
instead of coming from the depots or where you would have 
parts, so that you can keep the planes flying that you need to 
keep flying. Fair?
    Captain Stearns. Fair. Fair assessment on that.
    Mr. Forbes. And you are having to do that now?
    Captain Stearns. Yes, sir.
    Mr. Forbes. Captain McRae, one of the things that we are 
very concerned about, Mr. Courtney and I, looking at the number 
of attack submarines we have. We know we are going down from 52 
to 41 in 2029, and I am very concerned about some of the work 
that has to be done on some of our submarines.
    You told us a story, I believe, about the USS Albany that 
was so--and we call them availabilities, but basically it was 
so--needed so much work on it, broke so much that it--the crew 
never actually got to deploy. They stayed in the shipyard 
basically the whole time. Is that a reference to that? Or am I 
incorrect on that?
    Captain McRae. Yes, sir. So what I was speaking of 
specifically was the maintenance overruns that we are 
experiencing in our shipyards and those overruns and depot-
level maintenance that cause us, when the ship does not return 
to the fleet on time as expected, that causes us to lose what 
we call operational days for that submarine and it is that loss 
of operational days that has the direct impact on our ability 
to execute our mission and provide the readiness that we are 
required to provide.
    Mr. Forbes. So during that period of time, as I understand 
it, that submarine stayed in the shipyard its entire time for 
that crew. Is that fair?
    Captain McRae. Yes, sir. So they entered the shipyard. They 
originally were scheduled to enter the shipyard, this is USS 
Albany we are talking about, in October of 2013. Back at that 
time we were going through sequestration and budgetary concerns 
and there was a lot of instability in our funding levels moving 
forward, so the decision was made to push the start of the 
overhaul off 3 months, and that we actually commenced that 
overhaul at Norfolk Naval Shipyard in January 2014.
    Originally the overhaul was scheduled to be 28.5 months and 
that estimate is based on previous execution by that shipyard 
doing similar platforms, so it is an estimated calculation as 
far as how long it should take based on execution--recent 
execution. Prior to that, Newport News had come out in about 28 
months, which is why that was selected.
    Since entering the shipyard, due to resource challenges 
that the shipyard has experienced due to prioritization, due to 
the workforce challenges that I think you all have been briefed 
on, the schedule--and I am seeing this from the squadron 
perspective--the schedule continued to slide to the right, 
meaning they weren't meeting their key events.
    And so about every 3 months or so we would get a new 
schedule that essentially continued to push timelines to the 
right throughout the last 2\1/2\ years. So today, we are 
looking at a 43-month overhaul for a maintenance period that 
was supposed to last 28 months and the impact of that is 
significant in a lot of different ways, certainly the 
operational days that are lost. Those are days that we will 
never recover because the hull life on that submarine is finite 
and so we will never be able to recapture those days.
    But it also has an impact on the other submarines that we 
have and the other crews that we have and the mission that we 
have to meet every day to be able to provide that resource to 
the Nation. So that is what we are talking about in terms of 
the overruns----
    Mr. Forbes. And Captain, what was the impact of that on the 
commanding officer of the Albany?
    Captain McRae. So one of the stories that I had relayed 
was--and I just talked to Wade just a couple days ago, 
actually. So one of the tertiary effects of overruns like this 
that people don't often talk about are the impact to crew and 
their families.
    So we are responsible for maintaining crew readiness in 
terms of professional development, experience at sea, 
developing them as operators, as warfighters, as leaders, and 
we put a lot of focus, obviously, and emphasis on that. For a 
submariner to really get trained and certified and qualified 
and be war-ready, he needs to be at sea and he needs to be 
operating at sea.
    Many--because of the delays on Albany, many of the sailors 
that have been reported--have reported in for their first sea 
tour on the Albany will start and end their sea tour in the 
shipyard. And what I had relayed was that sailors don't join 
the submarine force to sit on a barge in a shipyard. They 
really want to be on a submarine at sea. And I have seen that 
throughout the last 24 years.
    And so--so the impact specifically for the commanding 
officer because he was in a similar situation. He began his 
tour thinking that he was going to carry the ship through the 
shipyard period, come out on the back end, execute all the 
required certifications, inspections, prove that his team was--
was warfighting ready, execute sea trials, and then restore 
that submarine to full operational capability and he was 
excited to do that.
    But because of the delays now, he will actually be relieved 
and have his change of command with the ship still in the 
shipyard. Because of that, as a part of that, he has decided to 
submit his resignation and retire from the Navy rather than 
continue service.
    Mr. Forbes. So we lost the commanding officer of that 
submarine because basically the most water he saw was probably 
at the water fountains around where the ship was being fixed 
and--if it has an impact on him, would it be fair to conclude 
it is having an impact on the crew as well?
    Captain McRae. It absolutely is. And that was one of the 
things in talking to some of the officers and men that I 
confirmed, was that there are other effects. So for example, 
the executive officer that carried them through much of the 
shipyard period did not select for--for command at sea.
    The engineer that they previously had, he was by all 
measure a great performer but in--at the shipyard doesn't 
really have that capacity to demonstrate his warfighting 
expertise. It is a challenging environment to rank against your 
peers and we are a very competitive force, also did not select 
for executive officer.
    So I am not saying that that is the only reason they didn't 
select, but I can certainly tell you that inhibiting their 
ability to execute their warfighting mission at sea and become 
fully proficient and qualified, certified, and run those crews 
and do those missions certainly inhibits their professional 
development and their advancement in the service.
    Mr. Forbes. Captain Robertson, I want to ask you a personal 
question and we get to do that here, you know, fortunately. If 
Admiral Davidson asked you to do something, I know based on 
your professionalism, you are going to salute and say, yes, 
sir, and you are going to go do it.
    If you have to go do it, my suspicion is Kelly is going to 
be a supportive wife and say, you know, go do it and I am going 
to keep the home fires burning. You have missed a lot of 
anniversaries. We talked about some of them today.
    Even aside from you, tell me the impact on the men and 
women who serve under you when we stretch these deployments 
from 5 months, as they were about 8 years ago, to 7, 8, 9, 10 
months where some of them are going.
    What is the real life impact to them, and just as Captain 
McRae talked about people at some point in time saying I have 
got enough, whether it is the officer of the submarine or 
whether it is the crew.
    What is the real life impact to those men and women, both 
that serve under you, but you have served with throughout these 
years when they are asked to give up another anniversary, 
another baseball game, another birthday?
    Captain Robertson. Sure. Happy to answer that question. It 
is kind of complex strictly because, you know, when you talk 
about a junior sailor experiencing a deployment for the very 
first time, there is no expectation of what it----
    Mr. Forbes. And include in that the impact to their family, 
too.
    Captain Robertson. Absolutely. Absolutely. There is no 
doubt and actually Kelly and I were just talking about this 
very fact yesterday how we have seen as our deployments have 
gotten longer where they originally were 6 months and now just 
finishing a 9\1/2\-month on deployment.
    We felt very fortunate we were mature enough to be able to 
absorb that and--but our junior sailors certainly, you know, 
wind up taking the brunt of that. It is a lot of missed 
birthdays and anniversaries and sporting events and recitals.
    So there is no doubt that there certainly is a personal, a 
real personal challenge with these long deployments and it 
certainly stresses the families. But I have to also add, 
though, that our sailors, when they know in advance what their 
deployment length is going to be, they can prepare for it and 
my--my crew knew in advance we were doing a long deployment. So 
we were really able to condition the families, make sure the 
infrastructure was there for them to best prepare them as much 
as we could for this extra long deployment.
    So--and as such, I was rewarded with good morale on my ship 
and a pretty good morale back home. But you can't overstate, 
you know, you can't make--forget the humanistic impact of 
everything that they do miss.
    Mr. Forbes. We were told when we actually had lunch on 
Monday with some of the individuals there that, you know, their 
families actually get ribbons that they start putting up and 
cutting as they are looking 60 days out and 30 days out and 
then when all of a sudden those deployments are changed, that 
it has an enormous impact on the children and the families. Is 
that your experience or----
    Captain Robertson. Absolutely. I do have--I do have 
experience with a short notice extension on deployment and when 
I was a commander in command we were scheduled for a 6\1/2\ 
month deployment. And just prior to us departing, out-chopping 
or leaving the theater of operation to return home, we were 
extended for another 4 weeks.
    So--and that was a challenge from a morale perspective. 
Certainly it was easier for me to build morale on the ship, 
hey, our Navy needs us, our country needs us on mission. I 
certainly know that it was much bigger impact back home. Return 
parties, vacations planned, reunions, so that was--so a change 
in schedule is really hard on our families.
    Mr. Forbes. Chairman Wittman.
    Mr. Wittman. Thank you, Chairman Forbes. I want to drill 
down a little bit more on Chairman Forbes' question, Captain 
Stearns, about aircraft.
    We talked about the availability of those aircraft, but 
what I want to look is how we generate that availability and 
obviously there at Oceana you deal not only with the aircraft 
availability, but also with depots and we have gone from a 
backlog in the depots of about 11 aircraft now up to 200 
aircraft. So that pipeline is a significant issue.
    Throughput hasn't changed. I know that we have made a lot 
of plans to try to manage that, but if that capacity and 
throughput hasn't changed, that still creates a situation that 
we are dealing with that we have E-2Ds that don't have spare 
parts, so we are going through all of those machinations trying 
to figure out a way through this, you know, great recovery 
plans in place.
    But I think as you pointed out, you know, time is the 
limiting factor there. But time is not only a limiting factor, 
but--but the throughput, the capacity there in our depots. How 
do we--well first of all, how does that backlog in aircraft 
affect operational readiness? And you pointed to that a little 
bit. But I want to know how--how does it affect things in the 
long term and what do we have to do to be able to shorten that 
time period?
    You pointed out to it--to now it being three times as long 
as it would otherwise have been. How does it affect things 
today? Let's say a scenario where we have to push the button 
and it is more than just those forces forward deployed and--and 
I want to understand a little bit more about that--you alluded 
to earlier--but then what do we need to do to make sure that we 
are able to generate the throughput to as quickly as we can 
recover this lost readiness in these--availability of these 
aircraft?
    Captain Stearns. And--thanks for the question. So there are 
two reasons why the depots are--are backlogged now and that is 
wartime utilization and also the fact of the delay in our JSF 
[Joint Strike Fighter] that we had planned on having here as 
well.
    So that forced us into an extension of our A through Ds. So 
to put it into perspective, Navy has 35 F-18 squadrons, east, 
west coast, Japan. Five of those are of the older legacy 
aircraft, the A through Ds as well, and the other 30 are Super 
Hornets.
    So they are in the--they are backlogged. It is--the depots 
were never set up to do what we call high flight hour which 
means essentially we are extending them past the 6-hour--8,000-
hour to 10,000-hour life that they were ever expected to fly, 
just to meet the operational demand.
    So now they are forced into a 3-year lead time just to make 
the parts for these kits to get in there and it is all a 
capacity problem. The jets coming out the back side are a great 
product that our civilian workforce puts out. They can only do 
so much because they were never set up to do that.
    So that is the risk for that and right now I have four of 
my legacy--four of my five legacy squadrons in a FRP right 
now--in a cycle to be deployed or not and I have to make some 
of those older aircraft that are--probably don't have enough 
hours on. We are not going to use them for deployment anymore 
into that squadron so they don't have the capability as they go 
through there. Our goal is to get them prior to advanced phase 
Air Wing Fallon.
    But that leads into the Super Hornet problem that we have 
transitioned about 10 squadrons of Super Hornets unexpectedly 
into our--to get out of legacy and also to meet the gap for the 
JSF--just to meet operational demand. So now we are taxing 
hours and utilization on our attrition aircraft. Those were 
meant for our attrition aircraft and Super Hornet. Now we are 
utilizing that.
    So when those start going into the depot in a year and a 
half for normal maintenance--6,000-hour maintenance, we got to 
get that legacy out of the depot right now. So it is a capacity 
problem that is right back there so we will have even less 
available surge force.
    It translates to less available surge force to send out the 
door and I am not so much worried about the A through D right 
now. We have got that. It is the Super Hornet coming that as 
Admiral Manazir testified I think in March we are chewing up 
about 40 hours--or 40 aircraft worth of hours a month and if we 
are not either buying that much or putting that much through 
the depot, we are falling behind.
    Mr. Wittman. How does that affect the Fleet Replacement 
Squadron where you go to get aircraft and the flying hours that 
have to be accrued there to make sure our pilots have the sea 
time so that when they do their pre-deployment work-ups and 
they get to the point to go on deployment, that they have the 
full complement of flight hours to make sure? Because as you 
know experience there--if you are missing it on the front end 
you never can make it up on the back end. So kind of give me 
your perspective on that.
    Captain Stearns. Exactly right. So our Fleet Replacement 
Squadron almost has the same priority as our deployed squadrons 
because if we lose a day of training we are never going to get 
that back so that is kind of what we call our seed corn--our 
investment in the naval aviation of the future. So we--if that 
stops, the train wreck happens behind it because the fleet 
doesn't have pilots to get out there.
    So between the east and west coast we are behind on pilot 
production and WSO [weapons systems officer] production to the 
fleet. So some of the fleet squadrons in the maintenance phase 
are short because we got to get those guys out the door.
    So it absolutely pays the price but those squadrons are 
also the ones that will rob from the maintenance phase to make 
sure that they have what they need to keep the training going. 
But that is a very important part of the entire readiness train 
is producing new folks.
    Mr. Wittman. Very good. Thanks, Captain Stearns. Captain 
Robertson, I want to go back to you. I noticed in your bio that 
you had--you had served earlier in your career as a young 
lieutenant also on the USS Normandy. So I wanted to get your 
perspective.
    I think you are in a unique position to give your viewpoint 
on where you saw that cruiser early on--early in your career 
but also younger in the life of the USS Normandy--and 
operational availability, readiness elements, at that point as 
of today. Give us your perspective--kind of give us a 
historical perspective about what you saw then, what you saw 
today, and the differences, good or bad, in what we need to 
look at going into the future.
    Captain Robertson. Absolutely. Thank you for the question. 
It is really a night-and-day story. Returning to Normandy as a 
fully modernized cruiser including the Navy integrated fire 
control capability--just from a kinetic reach capability, it is 
really a night-and-day story.
    The current modernized cruiser comes with not only 
impressive kinetic surface-to-air capability but also a huge 
increase in undersea warfare for hunting or searching for 
submarines or certainly for self-defense in a close-in fight 
with a gun weapons system.
    There is also a big difference I noticed in the hull 
strengthening that comes with modernization of these cruisers. 
When I was previously on Normandy out for storm evasion, we 
wound up actually with a number of superstructure cracks just 
to due to known flexing points in the superstructure. I just 
finished an around-the-world cruise with some very significant 
seas and we didn't have any of those because of the 
modernization hull stiffening really reinforced those flex 
points.
    So it really, truly is a night-and-day difference and just 
one of the point of this is, we have taken a 26-year-old ship, 
and through modernization, it is currently the most powerful 
ship that you have in our Navy right now so----
    Mr. Wittman. Very good. Thank you, Captain Robertson and 
Kelly, thank you.
    Mr. Chairman, I yield back.
    Mr. Forbes. As we warned you at the beginning, the bells 
are tolling and they are tolling for us to go vote. We--I do 
not want to interrupt Mr. Courtney's questioning, so rather 
than have him start, if it is okay, Joe, we will go ahead and 
take a break and we are going to go vote and then we will be 
back and we will begin with Mr. Courtney at that time.
    Mr. Courtney. Okay.
    [Recess.]
    Mr. Forbes. When we left, we were getting ready to start 
with Congressman Courtney's questions. And so we will recognize 
Mr. Courtney now for any questions he may have.
    Mr. Courtney. Thank you, Mr. Chairman.
    And again, just to go back over a couple of items that came 
up in the first round.
    Captain McRae, I wanted to just kind of drill down a little 
bit deeper on your point about the Albany delay and, you know, 
what that means in terms of the submarine fleet long term.
    Again, we spend a lot of time in the committee looking at 
the tile charts in terms of the size of the fleet throughout 
the 20s and 30s, and obviously we are going to have this 
bathtub that we are doing our best to try and mitigate with 
some of the shipbuilding, you know, provisions in the defense 
bill this year.
    But your point was is that, you know, having an extra 15 
months in availability, it is not like, you know, having your 
car in the garage for 15 months with a, you know, tarp over it. 
But, you know, the year doesn't matter so much in that context, 
you know, because it is the mileage that--you are saving on the 
mileage.
    But with a submarine, you don't really save on the mileage 
because of just the hull life, as you mentioned. I was 
wondering if you could just sort of explain that a little bit 
more. So again, the record is clear about the fact that this is 
just pure wasted time.
    Captain McRae. Yes, sir. So, as you said, you know, the 
hull lives of our submarines are carefully managed by the 
Submarine Force and the Naval Sea Systems Command. And we have 
varying intervals--op cycle, operational cycle intervals, and 
operating intervals that we manage to ensure that those lives--
that they make it effectively to the end of life that is 
designed. And as we have with some of our submarines, that we 
are even capable of potentially extending those lives, 
depending on what we see in our certifications as they continue 
through their life cycle.
    Maintenance periods, major maintenance periods we use to 
reset those op intervals and op cycles. And again, it is just 
something--those come with--whether it be maintenance that is 
done on the submarines themselves, or if it is just inspections 
and certifications that occur to certify that the material is 
holding up as expected, we don't find anything surprising such 
as cracks or improper welds or those types of things, and that 
the submarine is--is doing the things we need it to do and 
meeting its end of life.
    So we will reset those periodically. The major depot avails 
are obviously part of the lifecycle maintenance. And those come 
at specific times in order to reset those--those intervals. It 
is all very finely tuned, kind of like gears in the turbine, if 
you will.
    So, as the submarine maintenance period is delayed and that 
cycle gets off, we start impacting not only the life cycle for 
that particular submarine, but we also impact the life cycle of 
the other submarines around it. So for example, USS Boise is 
scheduled, because of her operating cycle and operating 
interval, to enter the shipyard this past October--because of 
delays to the Albany--she is lined up to go into the Norfolk 
Naval Shipyard.
    Because of delays on Albany, we have been extending Boise's 
operational time in 3-month increments, just as we have been 
doing with Albany and trying to get her out of the shipyard and 
back to the fleet. As we do that, we run up against these op 
cycle and op interval limits to the point where now we are no 
longer capable of operating Boise at sea after this summer.
    So any delays after that in her start date will be days 
that Boise will sit tied up to the pier, not in depot 
maintenance availability as she should be, but frankly just 
waiting on the depot maintenance to begin. And so, it is almost 
double the lost days if you think of it in that perspective.
    We do everything we can locally to maximize the use of that 
time. We have been tasked to judiciously use all resources 
provided to us. And we take that charge very seriously.
    And so, for example, when Albany was delayed, we pulled in 
maintenance that we could get done outside of the overhaul 
package into that period before she went into overhaul so that 
that would just help with executing the timeline of the depot 
maintenance and hopefully get her out on time. We will do the 
same thing with Boise while she sits tied to the pier, waiting 
on the overhaul to start.
    But clearly, it is a significant impact and it is not as 
simple as saying, you know, well, I have lost one submarine day 
because one submarine is extended in the dry dock and in the 
shipyard. It is actually much more than that.
    Mr. Courtney. Right. Thank you.
    And so, again, it is just--that 15-month delay is just, 
again, it is just lost time for, you know, a vessel that cost 
roughly about $800 million or $900 million to build back in the 
day, and they are now about $2 billion a pop these days. I 
mean, this is--I mean, this is a really big cost to the country 
and to the taxpayer.
    Captain McRae. Yes, sir. And the other thing that I would 
mention is the operational aspect of that. Clearly, it affects 
the operations of the Albany and the people, as we talked about 
before. But again, now, the duties and requirements leveraged 
on the submarine force for operational time, which is 
everything from forward deployments to local operations, to 
sub-on-sub certifications and training that we do to hone our 
warfighting skills.
    All of those things now have to be levied on the other 
submarines that are available. So it crunches their schedules 
such that then they lose out on what we call commanding 
officer's discretionary time, the amount of time a commanding 
officer has to take his ship and his crew to sea and improve 
them and train them and get them up to the standards that he 
needs them to be.
    You know, we constantly execute, assess and improve. And 
the assessment part is important. But the improvement part, the 
time to go to sea and fix your ship, if you will, raise the 
standards on board, that is even more important. And when we 
crunch the schedules, many times that is what we see being 
compressed is that commanding officer's discretionary time.
    So we as a force do everything we can to defend it. But I 
will tell you, we are not 100 percent successful and we many 
times can't achieve the levels of commanding officer's 
discretionary time that we would prefer.
    Mr. Courtney. Great. Thank you, Captain. And I was going to 
ask Captain Odenthal some questions, but I think my friend to 
the left here is going to take over that. So thank you again 
for being here today. I know your testimony is important to us.
    And with that, I will yield back.
    Mr. Forbes. Thank you, Mr. Courtney.
    And now we recognize Congressman Peters for any questions 
he may have.
    Mr. Peters. Thank you, Mr. Chairman.
    And Mr. Courtney, they don't always say I am to your left.
    [Laughter.]
    That is hard to do
    I want to, I did have a quick question for Captain Odenthal 
about the MILCON [military construction] budget. In your 
written testimony, there were some--some issues that you made 
about the decreases, and maybe you could tell us where you are 
feeling those decreases the most. And in particular, preparing 
for new ships like the LCS [littoral combat ship]--maybe you 
can give us a little thumbnail about how MILCON decreases are 
affecting you.
    Captain Odenthal. Thank you for your question.
    I am really here representing the Naval Construction Force, 
and I don't have--can't really speak to the overall MILCON 
budget of the Navy and how that is affecting the LCS platform.
    Mr. Peters. Well, maybe then within your purview, you could 
tell us kind of how the MILCON----
    Mr. Forbes. Would the gentleman yield?
    Mr. Peters. Yes, sure.
    Mr. Forbes. Maybe what we could do is have that submitted 
for the record, so you could get that answer, if that is okay--
--
    Mr. Peters. Sure. Okay. All right.
    Mr. Forbes. We will do that and see if you can get us an 
answer back on that for the record. Thanks.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Peters. Right. And then I guess I would also reference 
the Career Intermission Program [CIP], the innovative program 
for retention. And maybe Captains Robertson and McRae might 
talk a little bit about what you are hearing. Maybe you touched 
on this before with the OPTEMPO [operations tempo] and all 
that, but what are some of the issues that you are having, what 
do you hear from your crew about the reason that they--maybe 
the number one reason that they don't serve longer?
    Captain Robertson. Well, thank you for your question.
    Speaking just from within my own lifelines, within the 
ship, you know, we are really starting to groom a very 
competitive force with the sailors that we do have. And so, 
we--we weigh performance very heavily. And so there is really 
an onus on the sailors and a desire to really perform. Because 
if you don't perform, you are not even going to have the option 
to actually be able to stay in.
    We are looking for sailors that perform at a high level. 
That really goes to making sure we have a very talented and 
very capable force.
    So, the sailors that do want to get out, you know, I have 
actually done a number of these over the last couple of months, 
interviewing them. And none of them are getting out due to 
dissatisfaction with what they do. They love being in the Navy, 
but they have other aspirations outside the Navy, or for 
possible family reasons that they want to get out.
    But out of all the interviews, again, within my lifelines, 
I have done onboard my ship, no one is getting out because they 
are unhappy with what they do.
    Captain McRae. Yes, sir.
    From my perspective on the submarine force, I would say 
first and foremost, this is a difficult business that we do. We 
ask a lot of our sailors and of our officers and we ask a lot 
of our families.
    But everyone, most everyone, that I encounter understands 
that when they sign up. They recognize the challenge. Frankly, 
for many of them that is why they choose the service, so they 
can come in and essentially test themselves and provide 
everything they can in support of the Nation, to really see how 
they fall out when ranked against some very competitive people.
    So many of us are attracted to that challenge. But over the 
years it does take a toll as you know. And it does start to 
have an impact on both the individual and the family. In terms 
of biggest impact, though, I would tell you, at the deck-plate 
level, my perspective is uncertainty and instability, whether 
it be in operational schedules, whether it be in budgets and 
continuing resolutions, whether it be in shifts in locations of 
depot availabilities, homeport changes, last-minute 
modifications, and frankly our permanent change of station 
orders process, where we used to be able to get sailors' orders 
a minimum of 6 months prior to their transfer, and now we are 
routinely seeing that inside 3 months that they have for 
themselves and their families to prepare to move, many times 
cross-country--that has a significant impact and causes 
significant strain for the family and the sailor.
    In some cases it seems as if we write that off as a cost of 
doing business based on the current fiscal uncertainty and 
instability but I would argue that that shouldn't be placed on 
the backs of our sailors and their families. So it is the 
uncertainty and instability I think that really has the biggest 
detrimental impact.
    Mr. Peters. I think that is a consistent response we hear 
to the budget issues and the way we have handled the budget 
over the past few years, from across the spectrum of people 
dealing with the military and inside the military.
    I guess maybe--Captain Odenthal--just ask you, invite you 
to give, sir, your take on your readiness challenges in your 
particular field and also maybe comment specifically on the 
overall Seabee force. It has been cut by quite a bit. Maybe you 
can tell us what deployment locations are not being supported, 
the cuts, how they are affecting your ability to train 
effectively, retain critical skill sets.
    Captain Odenthal. Thank you very much. You mentioned our 
reduction in the force. So we have gone over coming out of 15 
years of war, we have reduced the size of the Seabee force from 
what was 21 Naval Mobile Construction Battalions, which is our 
main--our main unit of action is a Naval Mobile Construction 
Battalion, an NMCB. We had 21; we have reduced over the last 5 
years down to 11.
    Of that, nine were Active Duty battalions. We are down to 6 
on the Active side, and we went from 12 down to 5 on the 
Reserve side as well. So that is close to a 50 percent 
reduction of the force and what we have available in Seabee 
units. With that, today, the size of our force at 11 battalions 
is sized properly for our response to operational plans and we 
have that ability to support the plans required in major 
conflict.
    We also, with those units, support the combatant commanders 
[COCOMs] with forward forces as well. We have gone down to--
right now we have deployed 2 battalions of Active Duty Seabees 
that are always forward deployed out of the force of 6 
battalions as well as about 200 Reserve Seabees that we have 
mobilized at this point now, and that we use for OCO [overseas 
contingency operation] missions as well in the Central Command 
and Africa Command area as well.
    So with that we have gone from--our ability was we would 
maintain three Active Duty battalions forward deployed at any 
one time as well as, during the war effort, usually a full 
Reserve battalion forward for four; we are down to that 2.3 as 
we say now, 2.3 battalions we keep forward.
    With that we still maintain those forces across the globe. 
We support those perhaps at the same sites that we did in the 
past but at reduced numbers, and when it comes to the 
requirements that we are asked for, for the COCOMs and the 
global force management, we are supporting about 80 percent of 
what is requested from the COCOMs--that additional piece goes 
back to the combatant commanders and they have the ability to 
look at other services as well for engineer resources.
    I can't really speak to what the impact is of that unable 
to support the last 20 percent that the combatant commanders 
take.
    Mr. Rogers. Okay. Thank you, thank you all of you for being 
here.
    Mr. Chairman, I yield back.
    Mr. Forbes. Since I mentioned at the outset that we have 
been privileged to have the chairman of the full committee with 
us throughout this hearing, and I would like to now recognize 
Chairman Thornberry for any comments or questions he may have.
    The Chairman. Thank you Mr. Chairman, and first I want to 
thank both subcommittees, not only for today's hearing, but for 
taking the time and effort to go to Norfolk and ask questions, 
listen, and see for yourselves.
    It is significant 10 members were concerned enough to go do 
that this week. Having visited some military installations 
myself, asking these questions, I believe there is no 
substitute for that, so thank you for doing that and then 
bringing the witnesses here. And thank you all for making the 
time and effort so some of the rest of us could hear.
    I am struck by the secondary effects that you all have been 
describing. So you get a backlog of overhauling this ship, and 
then another ship runs out of time-life while you have got it 
tied up to the dock, and it is those secondary and tertiary 
effects that I think are not obvious unless you ask the 
questions, so that has been very helpful.
    Captain Stearns, I want to ask a couple things, because a 
lot of what I have done has been talking to pilots and 
mechanics and so forth, a lot of whom deal with the F-18s. 
Admiral Davidson said Eisenhower is about ready and it is ready 
to go. At the same time, you made the point that for those 
carriers that are not just about to go, they are not getting 
the training that they need. I have talked to Marine pilots who 
are getting less than half the number of training hours they 
were supposed to get.
    Some of us think about that like cramming for an exam. You 
can do it the night before. Sometimes you can get by, it is 
probably not the best way to study. But explain to us what that 
means for pilots. Can you catch up, in the last month or two 
before you deploy, for the training that you missed for the 
previous months? How does that work?
    Captain Stearns. Thanks for the question. How that works--
the Navy as you know works under kind of a tiered training 
system. So we like to kind of feed the hours and then ramp them 
all the way up to deployment. The Marines are at what is called 
a T-2 level, at a constant level as well, so there are some 
differences. But I will speak to the Navy's point, is 
absolutely--sir, if you are not feeding the hours and letting 
them fly the hours in the maintenance phase--I call it, is the 
difference between currency and proficiency.
    Currency we talk about 11 hours a month baseline just to be 
safe to fly the aircraft. Proficiency means you are getting the 
14 hours a month in maintenance phase and all the way up to 
deployed phase which folks are getting. But if they are sitting 
in a lengthy maintenance phase--sometimes 1, 2, 3 years waiting 
for the carrier to come out--and they are getting reduced 
hours, that net effect over time absolutely plays into their 
experience level.
    Once they get into an increased OPTEMPO, for example the 
Bush coming out probably will be under a compressed cycle as 
well--it takes a little bit of learning curve and there is some 
risk involved in going from a slower OPTEMPO as it speeds up to 
a higher OPTEMPO as the pilots get put through the training 
regime.
    The commanding officers, the carrier air group commanders, 
the CSG [carrier strike group] admirals--they, all that is 
mitigated in what we call ORM, operational risk management, and 
if the skippers are told that they absolutely are not ready to 
go with their pilots, in a crawl, walk or run is what you are 
talking about--if they are not able to crawl first, and then 
walk first, and then run--they are not going to just come out 
of the gates running, so we assess that risk all the time as 
well.
    The Chairman. The other thing that has occurred to me as I 
ask these questions is I think of readiness too narrowly. I 
tend to think of it as operations and maintenance [O&M] 
accounts, you train, you repair the aircraft or the ships or 
whatever. But I have talked to mechanics who are working 7 days 
a week trying to keep old aircraft going, and I am convinced, 
and I am inviting your comment, see if you agree or disagree--
that we can cut so many people in end strength or particularly 
in some specialties, that we can never get ready.
    I watch the numbers as the average experience of mechanics 
in the Marine Corps has been going like this. Because they are 
leaving. And yet we are asking them to do more complicated 
things to keep 1980s aircraft with lots of hours flying on 
them. So I guess my point is end strength, or the number of 
people at least, plays a role in readiness as does 
modernization. Because in some ways the only way we are going 
to fix some of these helicopters and airplanes is get new ones. 
We can only use duct tape and baling wire so long. And so I 
would invite--as you have looked at these problems, do you 
agree with me, or do you have other comments, that readiness is 
not just about putting more money into O&M accounts, it is 
about this bigger picture?
    Captain Stearns. It is absolutely correct, and what 
concerns me is the maintenance phase units. We are down to 
people, the people here are experienced and they are doing it 
but we are at the point now where if I lose one experienced 
maintenance chief or one experienced first-class--they get sick 
or he has been down for some reason or leaving on deployment--I 
have no reach-back. So I have to reach back into not only parts 
and planes, I reach back into people. There is last-minute 
saves just to get the Ike out the door of people who are--
whatever issue it is there is no depth with people.
    The other part of that is maintenance phase--my squadrons, 
because the depots are backed up, or they send it out earlier 
than normal--these maintenance phase squadrons--it is all on 
the backs of the sailors to fix these jets that should already 
show up ready to go for them to train with.
    So we are seeing that with the backs, and also, we talked 
about cannibalization, moving parts around. Sailors are getting 
really good at that now. But that is not their main job, to 
show up at that, so they are forced into cannibalization, doing 
parts, they are getting good at it and all but again that is 
more time spent like my compatriot said, grabbing that part 
from another aircraft, bringing it across that side of the 
base, instead of just doing the phase maintenance for itself.
    So there is a backlog. And there is a cost for all that in 
maintenance phase if they spend a lot of time just building to 
get their three or four jets and they use them in that phase to 
train with. And I don't know if that answers your question----
    The Chairman. So thank you and----
    Captain McRae. Mr. Chairman, I know you directed that 
question to Captain Stearns but I----
    The Chairman. No, I would appreciate because--it is just 
because I have spent a lot of time talking to pilots and 
aircraft but obviously with submarines and ships I would like 
to know.
    Captain McRae. Yes, sir. I think your comments are spot on. 
I absolutely agree that readiness is much bigger than 
maintenance budgets and maintenance execution and modernization 
and those types of things.
    Maintenance also--I am sorry, the readiness also depends on 
personnel obviously and you talked about end strength and for 
the submarine force in particular I would tell you that our 
overall submarine force health is good.
    So our submarines are--manning our submarines is our 
priority and we man at about 100 to 103 percent fill, which 
means number of bodies on board. And we are at about 95, 96 
percent fit which means that those bodies have the exact amount 
of training, the proper Navy enlisted classification codes to 
do the jobs that they are in, they're at the right rate rank, 
those kind of things.
    So we--we are doing a pretty good at that but if you look 
at the submarine force billet structure over the last 15 years, 
what you will see is we have reduced our ultimate number of 
people in the submarine force by about 35 percent. Now we have 
done that with no change in our ability to deploy submarines 
and no change in the number of patrols--strategic deterrent 
patrols that we execute.
    And so when I was at Naval Submarine Support Center in 
Kings Bay, I used to tell all the new incoming submariners that 
I would argue that each of them is more important today than 
any submariner ever has been to submarine readiness because if 
I lose one of those members, as Captain Stearns said, I have 
less and less of an ability to provide a ready spare if you 
will if something happens to that individual.
    So in our effort to lean the force over the last 15 years, 
which we have done a very good job of that--much of that coming 
from shore and so we have leaned much of our shore staffs, 
which is not necessarily a bad thing. But in our effort to do 
that we have gotten to the point where our bench depth--our 
ability to respond to what we call unplanned losses is severely 
limited.
    An unplanned loss is when a sailor that reports on board a 
submarine for permanent duty has to leave that submarine before 
his planned rotation date due to any number of reasons. The 
primary drivers in the submarine force are medical reasons 
because of our stringent medical requirements; that is about 39 
percent of our unplanned losses.
    The second is mental health issues, ability to cope with 
the stressors that come with submarine life and duty in the 
submarine force.
    And the third leading cause is disciplinary but that is 
only about 12 percent. So much smaller.
    So those three are about 82 or so percent of our total 
unplanned losses. Unplanned losses in the entire submarine 
force number over 700 a year from our active, operational 
submarines. We lose about 700 people per year force-wide and so 
we recognized many years ago that is a lot of people.
    And so we really started taking a vested interest in going 
after how can we improve that? Now, one of the things that we 
have done--I have heard Captain Odenthal talk about the mental 
health pilot program--embedded mental health. So Submarine 
Squadron 6 we have generated an embedded mental health program 
over the past 2 years.
    The reason for that is because what we were seeing was many 
of our sailors that were having difficulties adjusting to 
submarine life whether it be them, their families, or anything 
else, would often not talk to anybody about their issues until 
they became so significant that it was too late to really help 
them. And at that point they had to become a loss to the force.
    We have a stress continuum. It goes from green to yellow to 
orange to red and many of those sailors were presenting, and 
for much of my career, sailors would present to the medical 
community after they were in the orange or red sector. So it 
was really too late. At that point you are in casualty control.
    By embedding the mental health pilot program at the 
waterfront, we have one mental health professional--a 
psychiatrist and we have two corpsmen--staff members with him. 
So it is a staff of three.
    But by doing that what we have been able to do is develop 
that trust with the command leadership, with the sailors 
themselves and with that office to understand the complexities 
associated with submarine life and to have those folks present 
what their issues much, much earlier. When they are trending 
toward yellow, possibly trending toward orange, but plenty of 
time left to do something about it and continue to keep a 
sailor at sea on a submarine.
    The program thus far, in 2\1/2\ years, has been highly 
successful and we have taken our unplanned losses in the 
squadron--this is due to psychological reasons only. We had 26 
in fiscal year 2012. In fiscal year 2015, we had five, so we 
have reduced that number about 80 percent simply by having that 
embedded mental health pilot.
    And so for us, as a force, that is something that we were 
pursuing establishing funding for in every submarine homeport 
again to go after those unplanned losses that we can go after. 
But we are doing that and we are taking all this effort because 
we recognize we don't have the bench depth that we have had 10, 
15 years ago to respond. And in fact, as Captain Stearns said, 
we are in fact cannibalizing people just like we cannibalize 
parts to get the mission done.
    Captain Robertson. And if I may again just give you a 
single unit perspective from my ship right now. So we have 
already talked about the cannibalization. Just to give you 
numbers, currently Normandy is in a maintenance phase right 
now, but I have 13 parts that have been cannibalized from my 
ship to support the current strike group getting ready for 
deployment.
    And we don't cannibalize parts that aren't mission 
critical. These are all mission items that have very specific 
critical function on board these ships. So 13 of those parts 
have been taken from my ship over the last month and a half 
just to get the strike group ready to go. Just like Admiral 
Davidson says, we are going to do everything we can to make 
sure that strike group is going out.
    But even if I wasn't in a maintenance phase, I could not 
possibly surge right now. I have had, for example, one of the 
parts I had to give up was a cable harness from my SPY [SPY-1] 
radar. Obviously a very critical function for an air defense 
ship, so without that capability right now, I am impacted 
significantly mission-wise.
    Cannibalizing people--even though my manning is--I have 
good fit and fill numbers on board my ship currently, I am 
still having to support the deployers right now. I have four 
sailors that are currently identified to go out with this 
deploying strike group right now to fit--or to fill some of 
those gaps right now.
    So we are cannibalizing parts and people so therefore our 
surge capability is certainly impacted. Last thing just real 
briefly as you had highlighted what truly is readiness and you 
are suggesting there is another perspective to it. There is 
certainly a readiness from a readiness to take on that high-end 
fight that we referenced. That training, that very specific 
training that we need, to make sure that we have the confidence 
and thus readiness to engage in that high-end fight is--it 
needs to be developed further.
    Mr. Forbes. You have all been very patient with us and we 
have to impose on your patience just a little bit longer. We 
have just a few more questions. Let me just be clear about one 
thing. Your duty is to defend our country, but our duty--the 
duty of the members sitting on this subcommittee and this full 
committee--is to defend you.
    The least we should be doing is getting you the resources 
that you need. The least we may be able to do is to describe to 
the American people what you need, and that, you have helped us 
with tremendously here today.
    And I want to try to just bring a little more clarification 
to that, and Captain McRae, you talked a little bit earlier 
today about the importance of a captain being able to take his 
ship out and then to do the improvements, I think were your 
words that you had--raising the standards.
    Would it be fair to call that the ``edge''? As he takes it 
from what you would say were the minimum things that you would 
check off to go and in that period of time that he is taking 
that ship out, that is where he really develops that ``edge'' 
that he would have if we were in a fight?
    Captain McRae. Yes, sir, in my personal opinion I believe 
that you would call that the ``edge.' We have--so to be clear, 
we train every day in the submarine force and we are very 
serious about our training. And we have the perspective that 
our submarines have to be capable at all times, whether in a 
deployed status, a non-deployed status, in a maintenance 
availability--it does not matter.
    We are ready to execute, if called upon, given the amount 
of resources and the time to get ourselves there. But our 
commanding officers are tasked with making sure their ships are 
fully ready to provide the readiness required of them no matter 
what part of the cycle that they are in.
    So we maintain that constant focus on readiness and an 
example of that is when I was on the USS Pittsburgh back in 
2002, 2003--I am sorry--2001. I apologize. After the attack 
of--on 9/11 we were--we had just started maintenance avail 
[availability], and without any direction or guidance, we 
immediately--another department head and I who I was also 
department head at the time--began putting that ship back 
together and getting ready to go to sea.
    Because we didn't know what was coming, but we wanted to be 
ready for it. And I use that as my personal example, that 
example applies to all of our submarines and all of our 
submarine leadership. So we do pay attention to that every day.
    However, as you said, many times certifications and 
inspections provide the command a list and a host of corrective 
actions--things that they can do better, things that they can 
go and work on, things that they can improve on, and that time 
alone at sea--to be able to operate and really stress the ship 
is really working on how are they going to go after those 
identified deficiencies.
    How are they going to solve those problems that have been 
identified, whether internally, by their own assessment 
programs, or externally, by other riders that may have more 
experience and have seen better things and be able to point 
them in the right direction to steer their training and their 
performance.
    But when does all that really get put together so that it 
is usable and so that it makes an impact on the ship's 
performance--it is during those times when they are alone at 
sea. And I have seen that several times during my tour at 
Squadron 6, where a submarine comes through the deployment 
preparation program, they continue to have many things that 
they need to go work on, and then if we give them some time at 
sea and guess what? They do a great job and they work on those 
things, and then when they go overseas and they get ridden by 
forward deployed commanders, all we hear are what a great job 
they are doing and how fantastic the crews are performing. So 
we have seen that time and time again with our deploying 
submarines.
    Mr. Forbes. Well, I had one of--captains of one of our subs 
who described it exactly like you did. He said that period of 
time is their--when they develop their ``edge'' and he said, 
obviously they can sail the sub out, they can do the things 
they need to do, but if they had to get in a high-end fight 
with a peer competitor, that is when they desperately need that 
``edge.''
    And what he worried about was whether or not he was losing 
that time to create the edge. So I worry that some of our 
readiness may be losing that edge that we may need in a high-
end fight and then the second thing I hear you telling me is 
just what Captain Stearns is saying. We worry about our bench 
too that you have to reach back to get.
    And then the other thing I would ask you about is this. You 
look at this every day. You see the needs and what our subs can 
do. We now worry because we are only able to meet 39 percent of 
our combatant commanders' needs for attack subs around the 
globe. What does that mean in terms of the 61 percent we are 
not meeting?
    And I know you can't talk about all of that, but what you 
can talk about here, what is the risk that puts on the table?
    Captain McRae. Yes, sir.
    So, clearly I am not a geographic combatant commander, but 
from my perspective, again, we deploy our submarines to be 
plug-and-play. They can operate in any environment, they can 
accomplish all submarine force missions and all capabilities 
and provide those to the combatant commander when tasked, and 
they can do it on very short notice.
    And we have seen that happen since my time at the squadron 
repeatedly, where submarines will start with one mission and 
skill set in mind, and will be shifted--which is one of the 
reasons that we do robust training. It covers all possible 
missions, not just those we expect them to be tasked with.
    So, as you reduce the number of submarines available for 
the combatant commanders, as you said, and again, I am kind of 
speaking out of turn here because I am speaking for their 
perspective, but there are clearly things that are occurring in 
the world that we would not have coverage on. It can be a 
myriad of things. It can be the continued Chinese you know, 
build-up, and the continued deployment of their submarines 
further and further with farther and farther reaches to 
different parts of the world.
    It can be intelligence, reconnaissance, and surveillance 
missions to gain valuable intelligence to provide the Congress 
and the Nation, so that we can make decisions about the right 
courses of action moving forward. It can be interdiction 
operations, it can be monitoring operations. There are lots of 
things.
    And it could be just having the right number of missiles, 
if you will, shooters available for a particular mission area, 
a particular time in our Nation's life. And so--so there are a 
number of unfunded requirements, if you will, that there is 
just no one there to cover.
    And at that point, you get down to prioritizing based on 
the most critical of what we assume are the most critical, 
recognizing that there will be a gap there on what we are able 
to maintain coverage on and awareness of--which would then make 
our efforts, well a little more inefficient.
    Mr. Forbes. Captain Stearns, you, I think, would agree that 
the ability of your pilots to fly gives them that ``edge.'' And 
when they don't have that flying time, we lose that ``edge.'' 
You talked about the lack of a bench as well, I think, that you 
might have.
    One of the things that has concerned me is the Navy has 
proposed to limit the Carrier Air Wing One for up to 4 months 
without any flying time at all. What would that mean?
    Captain Stearns. That means you save maybe a quarter, $9 to 
$13 million for an air wing to fund that a quarter. So, by 
bringing down an air wing, we know after 3 months the cold--we 
call it cold iron. You shut it down, and it means that the 
maintenance troops aren't training on those jets, it means the 
pilots are losing 3 to 4 months of flight hours that, normally, 
we worry if those pilots are going to make the next deployment 
that feeds into that.
    But also, those pilots, they are going to train are future 
pilots that are building those hours. So, now I have got a gap 
there as a guy shows up to an instructor role who maybe doesn't 
have as many hours.
    Mr. Forbes. So you are not only losing your ``edge,'' but 
you are kind of losing your ability to backfill, by 
additional----
    Captain Stearns. Never going to get those hours, never get 
it done.
    Mr. Forbes. Never get it back.
    Captain Stearns. And then, so on the back side of that, 
losing an air wing for 4 months not flying, which we did back 
in 2009, 2010, it is going to take me three times the amount 
and three times the cost to get them back up to speed.
    Mr. Forbes. What do your pilots think of that?
    Captain Stearns. There are some rumblings of that coming 
down, and that will just drive morale straight down into the--
down to the bottom, down there.
    Mr. Forbes. Captain Odenthal, we all know, but can you tell 
people who are listening to this perhaps at home what the 
Seabees do? And I think you did say that you were down to half 
that force.
    Tell us how this is impacting the deployments for our 
sailors that have experienced them, what that tempo has been 
like over the last few years for them.
    Captain Odenthal. Yes, sir. Thank you for that question.
    So, the Seabees, simply to put our mission, we are a 
construction unit military. ``We build, we fight,'' is our 
logo, and that is what we do. We are able to do high-end 
construction in any environment out there, defend it ourselves, 
and take care of ourselves.
    I would like to think of our mission, really is about these 
gentlemen to my right. My job is to build, maintain, repair, 
and defend as necessary those forward operating bases in a time 
of conflict, that allows, again, these gentlemen to my right, 
the Marine Corps, Navy Special Warfare, to operate forward, 
stay--keep their presence forward, and be able to replenish, 
rearm, and refuel close to the fight and get back into the 
fight.
    That is the heart of what we do as Seabees.
    As far as the OPSTEMPO with the reduction there, we look at 
the--certainly with the reduction in the number of units, we 
are very quickly into the Reserve when we talk about response 
to a conflict. Where I, again, bench depth is something that 
reflects well with me there.
    We much quicker get to requiring those Reserve units to 
operate forward and come to a fight, if we need them, as well. 
And there are concerns with the timeline we have for getting 
those units prepared, when we mobilize them as well, and our 
ability to move more of that training to their pre-mobilization 
timeframe to get them forward.
    So, certainly on a Reserve side, we worry about the 
training hours, the contact time we have with them, both on a 
funding level, but also from the fact that we realize when we--
the more time I have with the Reserve that requires training 
takes away from that civilian employer piece, and it stresses 
out that individual as well.
    On the Active side and both the Reserve, our OPSTEMPO, 
coming off of a time of war, if you talk to an average E-6, a 
first class petty officer in one of my commands, most likely 
has done five or six combat or high-stress deployments to a 
austere environment, along with others.
    So, as we go forward, we certainly--we spoke about embedded 
mental health. We work resiliency issues quite hard, have 
invested in those things to help our sailors, our Seabees, be 
full-up round and be prepared for those next deployments.
    Mr. Forbes. Yes, thank you. And the last question I have 
for each of you is this.
    Last night, I was talking to a former Secretary of the 
Navy. And he told me that one of the things that he did when he 
would come on a ship or carriers, he would go get the chief, 
and he would say, ``You carry me around and show me what is 
going on.''
    Because he said--two things. He said, ``The chief is going 
to hear everything and probably see everything,'' you know, on 
that ship.
    If I could ask you this, if I went to any of the chiefs, if 
I went to someone who you could say, yeah, this guy hears all 
the stories from the guys, and he sees what is happening--what 
would be the thing they would tell us about readiness concerns 
that they would be saying, I want to tell this committee this. 
Or what is the story they would tell us about the impact this 
readiness is having on one of the men or women serving under 
them?
    Captain Robertson. Thank you for the question. I have a 
high degree of confidence that any of the chiefs in my mess 
would--would say that their biggest concern right now is our 
ability to be able to get out of my current maintenance phase 
on time.
    The--the cascading impact of--and just for reference, 
Normandy is just at the end of our second month of a 7-month 
maintenance period right now. Their concern, as is mine, is 
that if we are extended in any way, due to possible lack of 
resources, or unable to get any new or growth work completed on 
time has a cascading impact that winds up compressing--which I 
am sure everyone is aware of and has heard of the compression 
of training cycles and what that cascading impact is.
    A late delivery from my maintenance period winds up with 
taking away--and all those training requirements I still need 
to do to get to my intermediate and advanced level training 
still need to occur, but they get compressed.
    And so, Congressman Thornberry had mentioned it--it is just 
like cramming for a test. And the chiefs were very much an 
integral part of this; if we take away their ability to 
influence and help train, and make sure maintenance is getting 
done on these ships, because we have compressed it all because 
of a late delivery of a ship from its maintenance period, that 
is a significant problem to our readiness.
    Mr. Forbes. Captain McRae.
    Captain McRae. Yes, sir, Chairman. So, from a submarine 
perspective, I would tell you the chiefs in the Submarine 
Squadron 6 on our units have all suffered the impact of these 
depot maintenance delays that we talked about.
    And they can all tell you the story of the Albany, they can 
tell you the impacts that are occurring on Boise, because they 
see and they feel that.
    The next thing I think they see and feel quite a bit are 
spare parts availability. And we didn't talk about that a lot 
in terms of submarines, but that is something that we certainly 
wrestle with as well. Cannibalizations are relatively frequent 
in the submarine force. In the submarine force total, we do 
about 1.5 cannibalizations every single day to keep our 
submarines at sea.
    Mr. Forbes. Explain what that means.
    Captain McRae. So, basically, that is where we have a 
critical need, a part fails on a unit that is operational, 
either at sea already, or needs to get underway to accomplish a 
mission.
    And we look in the supply system, and the supply system 
either says there are no parts available at all, or if there is 
one, it is not going to be able to be here for a few months or 
so, well outside the timeline required.
    And so, in that case, then the only resort we are left to 
is to look for a boat that has a similar piece of equipment 
that is not as high on the priority scale for operations, and 
we pull that piece from that boat and install it on the boat 
that is about to conduct operations.
    That results in a subsequent back-fit on the previous boat 
that had been--that had lost that capability, and it also 
decrements that boat's ability to go out and operate in that 
surge capacity that we talked about, and that surge tank, in 
responding to emergent threats as they come up or to tasking as 
it comes up, as the world situation changes.
    And so, it does, you know, hurt our longer-term readiness 
from that perspective.
    The other thing I would tell you is--is bench depth. I 
think they feel the impacts of the bench depth, and I think 
every submariner would tell you that certainly, when we lose 
someone, we are challenged. But quite frankly, many times, the 
manning and distribution system is even challenged to get the 
appropriate sailor, a chief petty officer for example, to 
relieve on board at the planned rotation date--which has been 
on the books for a couple of years, maybe 3 years.
    But they can't--they don't have an available chief to go 
and relieve the chief that is onboard, and everybody 
understands if you don't have a relief, you don't leave.
    So now, when I have been expecting to transfer in, let's 
say, March of 2016, my transfer is held up indefinitely until 
they can find a suitable replacement, get him onboard, and we 
can conduct turnover.
    That is good for the command, but it is terrible for the 
family. And I think they would tell you, they could give you 
several examples of that occurring on their ships and with 
people that they know.
    Mr. Forbes. Stearns.
    Captain Stearns. My VFA [strike fighter squadron] chiefs, 
Hornet chiefs, are going to have to tell you, where are my 
parts? They are going to walk right in there--when am I getting 
my--is my aircraft going to come out of the depot on time? 
Because they are not coming out on time, just due to the 
capacity. Not that the product coming out is poor, but it is 
just that they are overloaded with capacity.
    They are going to ask about, when am I getting more chiefs, 
supervisory chiefs to help build these jets that I am now 
burdened with out here as well. And then also, when are you 
going to--comment of when are you going to quit taking jets 
from me, not only to feed the deployed forces, but we also feed 
our test and eval [evaluation] units, and our high-end fighting 
out in Air Wing Fallon.
    So, we are--we are donating jets out to them as well to 
train for that high-end fight. Right now, those guys don't have 
jets, because everything gets pulled from them forward. So I 
have fleet jets right now supporting test and evaluation for 
future software changes upgrades, just to keep feeding that 
high-end fight. So they are going to ask for parts, people, 
when am I getting my jets out, and then quit taking my jets.
    Mr. Forbes. Captain Odenthal.
    Captain Odenthal. Yes, sir. So Seabee chiefs are normally 
shy. That would be a joke. But the--they would most likely, 
with my chiefs, our technical skills and proficiency is a 
concern as we come out of the war era. We have done a lot of 
contingency-type construction and we need to--we are working on 
a proficiency to make sure we have those high-end skills to do 
any construction.
    And so our constant need for more time to train to those 
missions and prepare for that construction mission certainly is 
one of their highest concerns as well as the maintenance and 
upkeep of our equipment.
    With the reduction in the size of the force, we actually 
are fairly well-equipped today with the equipment we have--
reduced sizes. But we continue to use that in austere 
environments, keeping up with the maintenance of that equipment 
and thinking of the future 3 to 5 years down the road what the 
replacement is, is a concern we have across the force and being 
able to maintain the equipment ready to go to war.
    Mr. Forbes. Mr. Wittman, any more questions?
    Mr. Wittman. Yes. Thank you, Mr. Chairman. Captain 
Odenthal, I wanted to drill down a little bit. You had made 
some mention earlier and with the numbers within the Naval 
Construction Group 2 force, but overall, you spoke about 60 
percent of your force now is in the Reserve element.
    But within that 60 percent, 30 percent of those are the 
skilled tradesmen and now being part of the Reserve unit, they 
take the skills that they learn in C School and now they 
practice those for a couple of weeks out of the year.
    And on a normal demand basis, that is probably okay. But 
let's say we get into a situation, let's say in PACOM [Pacific 
Command], where we have to surge and we have to do a lot there 
in spinning up or to support whatever may be going on in that 
theater.
    The question then becomes is--where does the surge capacity 
come in and where does the ability for us to be able to 
function with that large a level of Reserve Component keep us 
where we need to be as far as capability and not--not 
necessarily from the immediate readiness element, but the 
ability to surge in the event of a conflict in areas like that. 
I would like to get your perspective on that.
    Captain Odenthal. Thank you for the question. So as you 
mentioned, our Reserve force now with Seabees, historically we 
think of most of our Reserve Seabees coming from the 
construction industry.
    Today we find ourselves in today's environment that about 
30 percent of our Reserve force are actually in the 
construction industry. The others are in other career fields. 
Which means, from my side is, I have--rather than counting, 
assuming that experience level that comes from the civilian 
trades, I have to teach those skills to my Seabees that come 
in.
    We have developed what we call the Readiness Training 
Platform, where we have relocated those units to Gulfport, 
Mississippi, Port Hueneme, California, which is our two hubs 
for Seabees across the fleet. From--rather than having them go 
to their drill sites, local drill sites, for every drill 
period, they come to our sites where we have the equipment, the 
tools, the instructors to teach those skills and to work with 
them.
    That has been successful, but it is somewhat limited again 
because of the time and the contact time we have as well.
    What happens--and we talk about mobilization of those 
forces--anything that I can't do in that regular pre-
mobilization training period falls into the post-mobilization 
period
    So we add those classes, we factor in that timeline to 
prepare them to go, whether it's that conflict or others, to 
make sure that we have that. We will not field those Seabees, 
one, if they are not prepared for combat, and two, if they are 
not proficient in their mission to be able to perform that. We 
won't put them forward. But it does add--adds time to our post-
mobilization training for those Reserves and able to get them 
out to the fleet as an effective member of the force.
    Mr. Wittman. Let me ask a couple questions about the 
budget. In light of sequestration, the budget cuts there, I 
know the Navy has transitioned to having contract work for 
naval facilities. So the question then becomes, again, what 
happens in a surge scenario, what happens with being able to 
generate consistent readiness.
    On top of that, too, now with OCO being a larger element of 
the budget and, again, trying to generate readiness within the 
OCO element, give me your perspective both previously and where 
we are with sequester and that has kind of--fanned out a little 
bit now, but it is coming back again.
    But also in how you generate readiness in that realm of 
contracting out a fair amount of work and then how does OCO, in 
those dollars, affect you in your needs going forward with what 
you have to generate within that current budget realm?
    Captain Odenthal. Right. Thank you. So across any COCOM, 
currently 22 percent of this year's budget is funded by OCO. We 
are heavily leveraged in OCO. Last year it was 47 percent. So 
moving in the right direction overall funding.
    With the forces I have deployed today, those 200 reservists 
I have, are all funded by OCO and that is how we get them 
forward and use them to meet those demands from the COCOMs. 
The, as far as construction, we, and work that is contracted, 
the forward piece, we take on those missions, we have got our 
units fully employed forward as well. In homeport our normal, 
our first choice, for training for construction is to pick up 
projects from the Navy, smaller projects that our units can 
employ, whether it is on the base in Gulfport, across the 
Southeast/East region, or even up to Norfolk where I put troops 
to build extensions to the galley, and those sort of things.
    So we try to leverage other people's money, other pieces of 
the budget to--one, to, one, to support the maintenance backlog 
across the Navy, but then also to get that training as best we 
can for our Seabees.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I yield 
back.
    Mr. Forbes. Mr. Courtney now promised all of you at the 
beginning that at the end we would give you time if there is 
anything you need to clarify or anything you felt we needed to 
put on the record about our readiness now, this is the time to 
do that.
    And--Captain Odenthal, why don't we start with you and work 
backwards because we have been doing it the opposite way and we 
just want to thank you all for being here and look forward to 
any wrap-up remarks you may have.
    Captain Odenthal. Thank you, sir. It is an honor to be here 
and I have nothing further for the record.
    Mr. Forbes. Thank you. Captain Stearns.
    Captain Stearns. Thanks for the opportunity to be here and 
talk about our readiness. The only thing I would have to 
finalize and add is after being a commanding officer and then 
the job I had after that was Aviation Training Readiness and 
now as the commodore job, we have gone kind of full spectrum 
of--cost-wise readiness, we were down to the bone of exactly 
what we needed.
    And then what I have noticed after sequestration in the CR, 
after being in the man, train, and equip business basically for 
the past 5 years, is that we are kind of now just looking to 
get to the finish line with--especially with our A through D F-
18s. They were never going to fly here, so it is not about--it 
is not about cost-wise readiness, it is about getting to the 
finish line and the gap in the capability here as well.
    So it is just getting more expensive to maintain older 
airframes out there and then I would just say the platforms we 
have are extraordinary and what we have coming is extraordinary 
but we have, we are tasked now with maintaining that and 
extending that life in a--there is a cost to that that is just 
beyond cost-wise readiness.
    But I appreciate the opportunity to speak to the forum.
    Mr. Forbes. Thank you, Captain.
    Captain Robertson.
    Captain Robertson. I also appreciate the opportunity. I 
shared a very short story with you with an exercise I executed 
right before I deployed last year in early 2015. I would like 
to put it on record here, the value it was to me as a 
commanding officer.
    In this particular exercise, all of the cruiser-destroyer 
units assigned to the Theodore Roosevelt Strike Group 
participated in an integrative, live-fire exercise. Within this 
exercise, we had eight high-speed target vessels that were 
attempting to penetrate the battle space around our strike 
group.
    We were able to employ layer defense using F-18s dropping 
live ordnance. And then, helicopters employing live ordnance. 
And then, finally getting into the--within the vital area and 
all the ships being able to employ their self-defense measures. 
Five-inch CIWS [close-in weapon system] and then also, small 
arms; was some of the best training that I had experienced.
    And very realistic. And one of the things it gave me as a 
soon-to-deploy commander, absolute confidence that I was ready. 
That my team was ready. That my weapons systems were ready for 
that type of fight. We truly need to start to get to that level 
here when we are talking about anti-ship cruise missiles.
    We need to make sure that we have the infrastructure that 
can flex strike groups to give them. And we need to have the 
targets, we need to have the ordnance. We need to have the 
facilities to be able to train to this and exercise this. So we 
can truly make sure that we have the confidence in our weapon 
systems to go out and perform at that high end that we need to. 
So I just want to share as far as our readiness piece, we have 
got to make sure that we are ready for that high-end, anti-ship 
cruise missile capability.
    On the lethality, I know that my leadership team certainly 
has been working here within this body here to make sure that 
we are getting the right lethality out to the ships as fast as 
we can. The only other comment to that is ensuring that we have 
the sufficient volume of that lethality capability. No one is 
ever going to shoot just one at United States, at a strike 
group, okay. And if we are going to be ready for a high-end 
threat, we need to make sure we have sufficient bat to go out 
there with.
    And then the last thing that I would like to just address 
real quickly is, is just the predictability and stability of 
resources. To really optimize this, the Fleet Response Plan, we 
need the predictability and stability of consistent resources 
that we can plan to and really get the gains that are designed 
within the Optimized Fleet Response Plan. Thank you for the 
opportunity.
    Mr. Forbes. Captain McRae.
    Captain McRae. Sir, thank you, sir. As my colleagues 
stated, I really appreciate the opportunity to be here and 
discuss our challenges that we face every day from our 
readiness perspective with you all. We appreciate your interest 
and your concerns.
    From my perspective, the insufficient funding levels that 
we receive to meet all of our requirements, coupled with the 
budgetary uncertainty and instability that we have seen over 
the last several years, are having detrimental effects on our 
readiness.
    And we have discussed a lot of the specifics today. There 
are many more out there that we haven't had an opportunity to 
discuss today. It is a very complex problem with a very complex 
impact that permeates our forces. So, as I think Mr. Wittman 
captured earlier, it is a complex situation. And those 
secondary and tertiary effects and impacts are much more 
significant, I think, than many people realize.
    So, the opportunity to shed light on those, I think, is 
important. And moving forward, we would just appreciate the 
continued support of not only the committee, but also the 
Congress in meeting our needs so that we can meet your 
requirements. Thank you, sir.
    Mr. Forbes. We want to thank you for, again, your service 
to our country. Thank you for what you are getting ready to do 
and thank you for taking time to come up here and enlighten us.
    Admiral Davidson, thank you for being here and for your 
service.
    And if no one has any additional questions--Kelly, Zach, 
thank you for coming up and for being supportive of your 
families.
    And with that we are done.
    [Whereupon, at 12:28 p.m., the subcommittees were 
adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 26, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 26, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
        
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 26, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. PETERS

    Captain Odenthal. Navy's Military Construction budget request for 
2017, which is at its lowest level since 1999, is prioritized to 
support Combatant Commander requirements, enable new platforms/
missions, upgrade utility infrastructure, and recapitalize Naval 
Shipyards. While we are able to fund projects vital to the initial 
operating capability of the Littoral Combat Ship and other new 
platforms and systems, fiscal constraints compel us to defer much-
needed repairs and upgrades for the vast majority of our 
infrastructure, including waterfront structures, airfields, 
laboratories, administrative buildings, academic institutions, 
warehouses, ordnance storage and utilities systems. Long term 
underinvestment in these facilities will take an eventual toll on our 
ability to support deploying forces.   [See page 21.]

                                  [all]
</pre></body></html>
